No. 19-840

In the Supreme Court of the United States
CALIFORNIA, et al.,
Petitioners,
v.
TEXAS, et al.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of the American Association of People With Disabilities, Paralyzed Veterans of
America, Judge David L. Bazelon Center for Mental Health Law, Disability Rights
Education and Defense Fund, and 15 Other Leading National Disability Rights
Organizations as Amici Curiae in Support of Petitioners, contains 7,983 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 12, 2020.

Mark P. Johnson
Counsel of Record
Dentons US LLP
4520 Main Street
Suite 1100
Kansas City, MO 64111
(816) 460-2400
mark.johnson@dentons.com

